<html>
<title> - CESAR ESTRADA CHAVEZ; CATOCTIN MOUNTAIN PARK; RIM OF THE VALLEY CORRIDOR; AND WIND CAVE NATIONAL PARK</title>
<body><pre>[Senate Hearing 108-14]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-14

    CESAR ESTRADA CHAVEZ; CATOCTIN MOUNTAIN PARK; RIM OF THE VALLEY 
                 CORRIDOR; AND WIND CAVE NATIONAL PARK

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 164                                S. 347

                           S. 328                                S. 425


                                     
                               __________

                             MARCH 4, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

86-785              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                         Thomas Lillie, Fellow
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................    10
Daschle, Hon. Tom, U.S. Senator from South Dakota................     1
Edmiston, Joseph T., Executive Director, Santa Monica Mountains 
  Conservancy....................................................     8
Feinstein, Hon. Dianne, U.S. Senator from California.............     2
Johnson, Hon. Tim, U.S. Senator from South Dakota................     3
McCain, Hon. John, U.S. Senator from Arizona.....................     3
Sarbanes, Hon. Paul S., U.S. Senator from Maryland...............    10
Schiff, Hon. Adam, U.S. Representative from California...........     5
Solis, Hon. Hilda L., U.S. Representative from California........    19
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Tiller, deTeel Patterson, Acting Associate Director for Cultural 
  Resources, National Park Service, Department of the Interior...    13

                                APPENDIX

Additional material submitted for the record.....................    29

 
    CESAR ESTRADA CHAVEZ; CATOCTIN MOUNTAIN PARK; RIM OF THE VALLEY 
                 CORRIDOR; AND WIND CAVE NATIONAL PARK

                              ----------                              


                         TUESDAY, MARCH 4, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Welcome to all of you. This is the--and 
Senator McCain, the administration's representatives, and 
witnesses for today's Parks Subcommittee. We will receive 
testimony on four bills. These bills are fairly 
straightforward. And we should be able to move for their 
consideration on our next business meeting, I would think.
    S. 164 would authorize the Secretary of the Interior to 
conduct a special resource study of sites associated with the 
life of Cesar Chavez and the farm labor movement.
    S. 328 renames the Catoctin Mountain Park in Maryland to 
Catoctin Mountain National Recreation Area.
    S. 347 directs the Secretaries of the Interior and 
Agriculture to conduct a joint study to evaluate the 
suitability and the feasibility of establishing the Rim of the 
Valley Corridor as a unit of the Santa Monica Mountain National 
Recreation Area.
    S. 425 would revise the boundary of the Wind Cave National 
Park to include approximately 5,675 acres of land.
    So these are the bills we will be talking about. And we are 
very pleased today to have Senator McCain with us, and also 
Congressman Adam Schiff.
    So, Senator, if you would like to begin.

         Prepared Statement of Hon. Tom Daschle, U.S. Senator 
                           From South Dakota

    Mr. Chairman, I want to thank you and Senator Akaka for convening 
today's hearing on the Wind Cave National Park Boundary Revision Act 
(S. 425). I am proud to sponsor this bill, which will benefit not only 
my home state of South Dakota, but the entire nation by expanding the 
protection of natural resources near the park. I first introduced this 
legislation during the 107th Congress, and it received a favorable 
hearing from this Committee last September. The Senate passed the bill 
unanimously in November, but the House of Representatives was unable to 
consider the bill before Congress adjourned for the year.
    Wind Cave National Park, located in southwestern South Dakota, is 
one of the Park System's precious natural treasures and one of the 
nation's first national parks. The cave itself, after which the park is 
named, is one of the world's oldest, longest and most complex cave 
systems, with more than 103 miles of mapped tunnels. The cave is well 
known for its exceptional display of boxwork, a rare, honeycomb-shaped 
formation that protrudes from the cave's ceilings and walls. While the 
cave is the focal point of the park, the land above the cave is equally 
impressive, with 28,000 acres of rolling meadows, majestic forests, 
creeks, and streams. As one of the few remaining mixed-grass prairie 
ecosystems in the country, the park is home to abundant wildlife, such 
as bison, deer, elk and birds, and is a National Game Preserve.
    The Wind Cave National Park Boundary Revision Act would authorize 
the National Park Service to take advantage of an opportunity to 
acquire property from willing sellers neighboring the park. The land in 
question lies within the southern ``keyhole'' region, and is a natural 
extension of the park. It contains the same mixed-grass prairie and 
ponderosa pine forests found in the rest of the park, including a 
dramatic river canyon. The addition of this land will enhance 
recreation for hikers who come for the solitude of the park's back 
country. It will also improve fire management in the area and protect 
archaeological sites, such as a buffalo jump over which early Native 
Americans once drove the bison they hunted. I understand this would be 
the first site of its kind in the National Park System.
    This plan to expand the park has strong support in the surrounding 
community, whose views were expressed during a 60-day public comment 
period on the proposal last summer. Most South Dakotans recognize the 
value in expanding the park, not only to encourage additional tourism 
in the Black Hills, but to permanently protect these extraordinary 
lands for future generations of Americans to enjoy. Understandably, 
however, some are legitimately concerned about the potential loss of 
hunting opportunities and local tax revenue.
    Congressman Bill Janklow, during his term as Governor of South 
Dakota, expressed his support for the park expansion, as long as it (1) 
does not reduce the amount of land with public access that currently 
can be hunted, (2) there is no loss of tax revenue to the county from 
the expansion, and (3) chronic wasting disease issues are dealt with 
effectively. These are reasonable conditions that should be met as this 
process moves forward.
    In response to these concerns, the National Park Service modified 
its original proposal to exclude 880 acres of School and Public Lands 
property from the expansion. This will help maintain public hunting 
access to these areas, and protect local county tax revenues. In 
addition, the South Dakota Game, Fish, and Parks Department has reached 
an agreement with Wind Cave officials to monitor the occurrence of 
chronic wasting disease in elk and deer herds in the park, which will 
help officials better understand the disease. I am satisfied that the 
proposal put forth by the Park Service effectively addresses these 
concerns. The question of tax revenue for the counties is one that 
Congress must address through the Payment in Lieu of Taxes program, 
which provides direct payments to counties with federal land. I look 
forward to working with my colleagues to fully fund this important 
program.
    Wind Cave National Park has been a valued American treasure for 
more than 100 years. This legislation provides us an opportunity to 
expand the park and enhance its value to the public, so that visitors 
will enjoy it even more during the next 100 years. It is my hope that 
my colleagues will support this expansion of the park and pass this 
legislation expeditiously.
    Again, thank you for holding this hearing. I look forward to 
working with the Chairman and the rest of the committee as it considers 
this legislation.
                                 ______
                                 
       Prepared Statement of Hon. Dianne Feinstein, U.S. Senator 
                            From California

    Mr. Chairman, I would like to begin by thanking you and the members 
of this Committee for your early consideration of this bill, the ``Rim 
of the Valley Corridor Study Act'', S. 347, which is so important to me 
and the people of California.
    I am delighted to introduce my colleague and friend, Congressman 
Adam Schiff, the distinguished Representative from the 29th district of 
California, who will be testifying today in support of this bill that 
we both feel strongly about.
    I would also like to welcome Joseph Edmiston, the Executive 
Director of the Santa Monica Mountains Conservancy, who flew from 
California to Washington with very short notice to lend his strong 
support for this bill. I appreciate your hard work and dedication for 
getting this job done.
    Congressman Schiff and I have been working in tandem on companion 
versions of this bill to authorize the Secretaries of Agriculture and 
Interior to conduct a joint resource study on the feasibility of 
including the Rim of the Valley Corridor in the Santa Monica Mountains 
National Recreation Area. We have worked diligently to address the 
concerns that the National Park Service posed to us last year during 
their testimony before this body and believe that this bill represents 
a well-balanced approach to land conservation.
    Last year, this bill was passed out of the full Committee 
favorably, but the 107"' Congress ended before it passed the Senate. I 
am hopeful that it will be successfully passed out of Committee and the 
Senate this year and I look forward to working with my colleagues on 
this Committee to do just that.
                                 ______
                                 
         Prepared Statement of Hon. Tim Johnson, U.S. Senator 
                           From South Dakota

    Thank you, Chairman Thomas and Ranking Member Akaka, for holding 
today's hearing to receive testimony on the Wind Cave National Park 
Boundary Revision Act (S. 425). I support the legislation and am proud 
to join Senator Daschle as a cosponsor. As a member of the Energy and 
Natural Resources Committee, I look forward to working with Chairman 
Thomas to move this bill through the committee process. With an 
established legislative history from the 107th Congress, it is my hope 
that this committee will pursue the same course of action so that the 
full Senate may consider the bill.
    Wind Cave National Park is one the nation's first national parks, 
containing in its boundaries one of the greatest expanses of 
underground cave complexes in North America. Established in 1903, Wind 
Cave National Park protects one of the world's oldest known cave 
formations with hundreds of miles of underground compartments. 
Amazingly, scientific measurements indicate that only five percent of 
the total cave has been discovered.
    With the option to acquire approximately 5,500 acres of land from 
willing sellers, Wind Cave National Park has a once-in-a-generation 
opportunity to significantly enhance one of the last remaining mixed-
grass prairie ecosystems in the world. The acquisition of this land 
adjacent to the southern boundary of the park will preserve a key 
archeological site described as one of the only existing buffalo jumps 
used by Native Americans as they hunted the giant animal.
    I believe that the local park officials have done a good job 
reaching out to the community and working to modify their original 
proposal to conform with the interests of landowners and the State of 
South Dakota. As with any land acquisition initiative the question of 
compensating local government's for the lost tax revenue is extremely 
important. The matter is particularly acute in western South Dakota, 
where large tracts of federal land result in particular challenges. To 
that end, I call on Congress to fully fund the Payment in Lieu of Taxes 
program and provide a dedicated revenue source to compensate local 
communities that have significant amounts of federal lands in the 
counties. Last year, I joined Senator Bingaman as a cosponsor of 
legislation that provides for the full authorized amount of PILT funds 
to be made available to the Interior Department. I understand that 
Senator Bingaman will be reintroducing this bill again in the 108th 
Congress, and I look forward to correcting the unfair system that 
shortchanges several South Dakota counties.
    The Wind Cave National Park is a South Dakota treasure shared with 
the entire world through the stewardship of the National Park Service. 
It is my hope that the Committee will take the appropriate steps and 
demonstrate positive action in the consideration of this bill.

          STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR 
                          FROM ARIZONA

    Senator McCain. Thank you very much, Mr. Chairman. And I, 
one, appreciate you starting on time; second of all, I know 
your request is for us to be brief, and I will do so. And I 
thank you for allowing me to say a few words today on behalf 
legislation which would be called the Cesar Chavez Study Act. 
It would begin the process where we could preserve landmarks 
and sites associated with the life of this great American.
    The bill, as you know Mr. Chairman, authorizes the 
Secretary of the Interior to determine whether any of these 
sites meet the criteria for being listed on the National 
Register of Historic Landmarks.
    Mr. Chairman, you are aware of the place that Cesar Chavez 
has in history, as I do. He was a man whose career was not 
without controversy. But he had, always uppermost in his mind, 
the betterment of the lives of his fellow citizens. Bobby 
Kennedy called him ``one of the heroic figures of our time.'' I 
believe that he earned a place in American history, not only 
because of his advocacy for farm workers but for all Americans.
    His achievements are well known. His legacy lives on all 
over my part of the country, where people continue to struggle 
for better working conditions, and equal opportunities, and 
better education. I think he is a man who deserves to have a 
continuing preservation of his achievements, so we can have him 
as an example for all of our citizens, especially young 
Hispanics.
    And I want to thank you for considering this legislation. 
And I thank you for the opportunity. And I would ask that my 
complete statement be made part of the record.
    Senator Thomas. It will be made part of the record, 
Senator.
    Senator McCain. Thank you, Senator Thomas.
    Senator Thomas. Thank you.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator From Arizona

    I would like begin by thanking the distinguished Chairman Thomas 
along with Ranking Member Akaka for allowing me to testify today on the 
matter of great importance to me and the state of Arizona.
    Cesar Estrada Chavez embodied American ideals and should be 
considered among the greatest leaders of American history. A fellow 
Arizonan, born in Yuma, he was the son of migrant farm workers. Though 
he no doubt loved qualities of life associated with his family's 
Hispanic heritage, he will be remembered for the sincerity of his 
American patriotism. He fought to help Americans transcend distinctions 
of experience and share equally in the rights and responsibilities of 
freedom. He made America a bigger and better nation. Bobby Kennedy 
called Chavez ``one of the heroic figures of our time.'' For all of 
these reasons, I come before you today to express my support for the 
Cesar Chavez Study Act.
    Although his formal education ended in the eighth grade, Chavez 
possessed an insatiable intellectual curiosity, was self-taught in many 
fields and well read throughout his life. After serving in the U.S. 
Navy during World War II, Chavez returned to the southwest and began 
his life as a community organizer and leader.
    While Chavez and his family migrated across the southwest looking 
for farm work, he evolved into a defender of worker's rights. His motto 
in life ``si se puede'' (it can be done) epitomizes the his life and 
work. Chavez's dream was to establish an organization whose main 
purpose was to serve the immigrant farm workers, who he had worked 
beside and whose hardships he could understand. In 1962, he founded the 
National Farm Workers Association, which later became the United Farm 
Workers of America.
    Through the United Farm Workers of America, Chavez attained fair 
wages, medical coverage, pension benefits, and humane living 
conditions, along with countless other rights and protections for farm 
workers. He organized successful strikes and boycotts that led to the 
first industry-wide labor contracts in agriculture. His union brought 
about the passage of the 1975 California Agricultural Labor Relations 
Act to protect farm workers. Today, it is the only law that protects 
the farm workers' rights to unionize.
    Chavez used peaceful tactics such as fasts, boycotts, strikes, and 
pilgrimages. In 1968, he fasted for 25 days to affirm his commitment 
and that of the farm labor movement to non-violence. He fasted again 
for 25 days in 1972, and in 1988, at the age of 61, he endured a 36-day 
``Fast for Life'' to highlight the harmful impact of pesticides on farm 
workers and their children. In 1994, Cesar Chavez was awarded the 
Presidential Medal of Freedom, the highest civilian honor in America.
    Cesar Chavez gave a voice to those that had no voice. In his words: 
``We cannot seek achievement for ourselves and forget about progress 
and prosperity for our community . . . our ambitions must be broad 
enough to include the aspirations and needs of others, for their sakes 
and for our own.''
    In this time when our nation is recognizing its heros, it is 
important to remember and preserving those from our past. The Cesar 
Chavez Study Act would begin this process by which we could preserve 
the landmarks and sites associated with the life of Cesar Estrada 
Chavez. This bill specifically authorizes the Secretary of the Interior 
to determine whether any of the sites meet the criteria for being 
listed on the National Register of Historic Landmarks. The study would 
be conducted within three years. The goal of this legislation is to 
establish a foundation for a future bill that will designate land for 
these sites to become historic landmarks.
    Landmarks all across the Southwest would be considered as potential 
historic landmarks.
    Many community organizations, including the Cesar E. Chavez 
Foundation have supported and helped to pull together this important 
piece of legislation.
    Thank you again for the opportunity to speak here today and I look 
forward to working with the Subcommittee and the Committee on this 
important piece legislation.

    Senator Thomas. I do not mean to question you but what 
kinds of sites do you envision might be involved here?
    Senator McCain. Well, I guess where his headquarters were, 
although obviously his work took him all over the Southwest. 
The place of birth, which happens to be Yuma, Arizona; places 
where he conducted some of his most historic protests for 
better living and working conditions.
    I think all of those could be considered. And I do not 
think many of them would be designated. But I think it would be 
a way of preserving the memory of his achievements, something 
like that.
    Senator Thomas. Sure. Well, thank you very much, Senator. 
Appreciate you taking the time to be here.
    Senator McCain. Thank you very much, Mr. Chairman.
    Senator Thomas. Congressman, would you care to go ahead?

                STATEMENT OF HON. ADAM SCHIFF, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Representative Schiff. Thank you, Mr. Chairman. It is a 
pleasure to join you today. And I appreciate the opportunity to 
testify in support of S. 347, the Rim of the Valley Corridor 
Study Act. As the author of the House version of the bill, I 
want to express my gratitude to Senator Feinstein for her 
leadership, on behalf of all Californians, in introducing the 
legislation.
    S. 347 would call for a study by the National Park Service 
and the U.S. Forestry Service of the feasibility and 
suitability of expanding the Santa Monica Mountains Recreation 
Area. The Rim of the Valley is home to some very rare 
environmental treasures, including one of the most endangered 
habitat areas in the world, the Mediterranean Chaparral 
ecosystem, found only here and in South Africa.
    This environmentally sensitive area is located in one of 
the most densely populated areas in the United States. The 
greater southern California region has the Nation's second 
largest urban concentration. Remarkably, about one in every 10 
Americans lives in this region. At the same time, the area has 
one of the lowest ratios of park and recreation lands per 
thousand population of any area in the country.
    So, this rapidly growing urban region is under-served in 
terms of open space; and this is likely only to get worse. In 
1978, Congress established the Santa Monica Mountains National 
Recreation Area. They worked together, then and now, in a 
remarkable way to manage this, the world's largest urban park. 
Now, a quarter of a century later, facing great population 
demands and pressures, we have the opportunity again to be 
forward-thinking and help preserve this wilderness area for 
future generations.
    We amended this bill, or Senator Feinstein has amended the 
Senate version. We have done the same in the House, in response 
to comments that the chair made last year and that the National 
Park Service made as well. The bill now authorizes a joint 
study between the Department of the Interior and the Department 
of Agriculture, since the Rim of the Valley incorporates lands 
that are now managed by the Park Service and others by the 
Forest Service. Together the Park Service and Forest Service 
can decide on the most appropriate way to protect this 
environmental treasure for future generations.
    Second, we eliminated the bill's provisions for a 17-member 
advisory commission. This was felt unnecessary in this 
provision, as this type of special resource study automatically 
entails extensive public outreach to communities and local 
governments.
    The bill also will references the criteria for the Park 
Service explicitly contained in 16 U.S.C. sections 1 through 5, 
I know a key area of interest of the chair, to make sure that 
the criteria for the National Park Service was explicitly 
referenced and considered.
    In addition to public lands that are already in these areas 
are private lands. The Santa Monica Mountains National 
Recreation Area, part of the Park Service is permitted to 
acquire private property from voluntary sellers or donors only 
and is prohibited from using the powers of eminent domain. And 
as Joe Edmiston, who is here to testify, also, the executive 
director of the Santa Monica Mountains Conservancy can 
articulate, we have had some tremendous public/private 
partnerships in this region. And those opportunities would only 
increase under this study.
    So it is my hope, Mr. Chairman, that the Rim of the Valley 
Study Corridor Act can embody a similar vision of a California 
enhanced by not only what was built but what is preserved. And 
the bill in the House enjoys a very strong bipartisan support, 
including Representatives Howard Berman, David Dreier, Buck 
McKeon, George Miller, Brad Sherman, and Hilda Solis.
    And I want to thank you again for the opportunity to come 
in and testify. And I know Mr. Edmiston will be able to give 
greater content to the nature of the bill.
    [The prepared statement of Mr. Schiff follows:]

      Prepared Statement of Hon. Adam Schiff, U.S. Representative 
                            From California

    Good afternoon, Chairman Thomas and members of the Subcommittee. I 
appreciate the opportunity to testify before you today in support of S. 
347, the Rim of the Valley Corridor Study Act. As the author of the 
House version of the bill, I would like to express my gratitude to 
Senator Feinstein for her leadership on behalf of all Californians in 
introducing this legislation in the Senate.
    S. 347 would call for a study by the National Park Service and the 
U.S. Forest Service of the feasibility and suitability of more than 
doubling the size of the Santa Monica Mountains National Recreation 
Area. The Rim of the Valley consists of parts of the Santa Monica 
Mountains, the Santa Susanna Mountains, the San Gabriel Mountains, the 
Verdugo Mountains, the San Rafael Hills, and adjacent connector areas 
to the Los Padres and San Bernardino National Forests. The Rim of the 
Valley is home to very rare environmental treasures, including one of 
the most endangered habitat areas in the world, the Mediterranean 
Chaparral ecosystem, found only here and in South Africa.
    This environmentally sensitive area is located in one of the most 
densely populated areas in the United States. The greater Southern 
California metropolitan region has the nation's second-largest urban 
concentration; about one in every ten Americans lives in this region. 
At the same time, this area has one of the lowest ratios of park-and-
recreation-lands per thousand-population of any area in the country. So 
this rapidly growing urban region is very underserved in terms of open 
space needs. Unless action is taken soon, this situation will only 
worsen as the region continues to be subjected to intense growth.
    Since Congress set aside the Santa Monica Mountains National 
Recreation Areas in 1978, federal, state and local authorities have 
worked in remarkable cooperation to manage what is the world's largest 
urban park. Now, nearly a quarter-century later and in the face of 
tremendous projected population growth and development pressures, 
Congress, by passing this bill, again will have the opportunity to help 
safeguard and supplement the existing state and local parks, open space 
and recreational opportunities in Southern California.
    We have amended this bill in response to comments from the National 
Park Service. First, the bill now authorizes a joint study between the 
Department of Interior and the Department of Agriculture, since the Rim 
of the Valley incorporates some lands that are now managed by the Park 
Service and others managed by the Forest Service. Together, the 
National Park Service and the U.S. Forest Service can decide on the 
most appropriate way to protect this environmental treasure for future 
generations. Secondly, we eliminated from the bill explicit provisions 
for a 17-member advisory commission. This provision was felt to be 
unnecessary, as this type of special resource study conducted by the 
National Park Service automatically entails extensive public outreach 
to communities and local governments.
    In addition to protected land, the Rim of the Valley Corridor 
encompasses private property. However, within the Santa Monica 
Mountains National Recreation Area, the Park Service is permitted to 
acquire private property from voluntary sellers or donors only and is 
prohibited from exercising the powers of eminent domain. Indeed, 
private ownership need not be incompatible with open space preservation 
efforts, and there are many good examples of private-public 
partnerships in the Santa Monica Mountains which have served to 
maintain the beauty of open space and preserve the rights of property 
owners.
    It is my hope that the Rim of the Valley Corridor Study Act will 
embody a similar dream and vision--of a Southern California enhanced 
not only by what was built, but also by what was preserved. This 
legislation enjoys strong bipartisan support, and the House version is 
supported by Republican and Democratic Members of Congress whose 
district includes portions of the Rim of the Valley Corridor, including 
Representatives Howard Berman, David Dreier, Howard ``Buck'' McKeon, 
George Miller, Brad Sherman and Hilda Solis. I thank you for your 
attention, and ask for your support for the Rim of the Valley Corridor 
Study Act.

    Senator Thomas. Okay. Fine. I have a few questions, but I 
will hold them and ask the other witnesses then to do that.
    Representative Schiff. Thank you, Mr. Chairman.
    Senator Thomas. Thank you for taking time to be here. We 
appreciate it.
    Well, if the other members, congressional members come, 
why, we will make time for them when they arrive.
    In the meantime, secondly, let us go ahead then with our 
panel, Mr. Tiller and Mr. Edmiston.
    Okay. Thank you, gentlemen. Why do we not start with Mr. 
Edmiston. You wanted to talk on the one bill.

  STATEMENT OF JOSEPH T. EDMISTON, EXECUTIVE DIRECTOR, SANTA 
                  MONICA MOUNTAINS CONSERVANCY

    Mr. Edmiston. Yes, Mr. Chairman; thank you. My name is 
Joseph Edmiston; I am executive director of the State of 
California, Santa Monica Mountains Conservancy. We were 
established by legislation in 1980. And the current boundary of 
the Santa Monica Mountains Conservancy's jurisdiction includes 
the Rim of the Valley Corridor Area encompassed in Senator 
Feinstein's bill. And you will see here a map. The colored area 
shows the Rim of the Valley and the Santa Monica Mountains 
together.
    Mr. Chairman, I think this is a very significant bill, 
because for the first time we are looking at protection of 
entire habitat areas, as opposed to many political 
jurisdictions. There was time when the Santa Monica Mountains 
was established when we were thinking of parks as we have a 
jewel here and then a jewel over here. And we were not really 
thinking about the connectivity.
    And this bill takes a look at natural resource connectivity 
and says, here is what the resource is, let us let the two 
premier land management agencies of this country, the Forest 
Service and the Park Service, get together and figure out how 
best to protect those resources. Mr. Chairman, that is why we 
think that this is a very significant bill or significant 
approach.
    Second of all, why now? These areas, right now, consist of 
a--we can save these areas. Surprisingly enough, we can 
actually save real nature surrounding the Los Angeles 
metropolitan area. But we are not going to be able to do that 
forever. Within the next 5 or 10 years, development pressure 
will likely eat away holes in this system and make this 
preservation impractical in the future. So that is why we need 
to address this issue now, Mr. Chairman.
    Finally, the Santa Monica Mountains Conservancy will make 
available up to $100,000, probably on the higher end of that, 
up to, to work with our colleagues in the Forest Service and 
the Park Service to develop this study. We commit this resource 
from the State of California, if Congress goes ahead and 
appropriates its own money or if the Forest Service and the 
Park Service can come up with funds to do this study.
    So, we think this would be very forthcoming. There is a lot 
of research that has been done, Mr. Chairman, on these areas, 
including a general management plan for the national recreation 
area. And the Forest Service is already doing their management 
plan. So, we are talking about adding additional State 
resources to those resources which are already being applied to 
this issue.
    Thank you very much. I would be happy to answer your 
questions.
    [The prepared statement of Mr. Edmiston follows:]

     Prepared Statement of Joseph T. Edmiston, Executive Officer, 
                   Santa Monica Mountains Conservancy

    Mr. Chairman, we appreciate the opportunity you have afforded the 
Santa Monica Mountains Conservancy to express its support for S. 347, 
the Rim of the Valley Corridor Study Act.
    The Santa Monica Mountains Conservancy is the principal agency of 
the State of California charged with protection of open space and the 
natural resources of almost three quarters of a million acres 
surrounding the Los Angeles Metropolitan Area. Since 1983 the Mountains 
Conservancy has had the responsibility acquiring park and open space 
land, building trails, and providing for other public access 
improvements within the Rim of the Valley Corridor.
    Successive state legislative amendments have expanded the territory 
of the Rim of the Valley Corridor so that it now encompasses a major 
portion of the Santa Monica Mountains, the Santa Susana Mountains, Simi 
Hills, Verdugo Mountains, San Rafael Hills, and the portion of the San 
Gabriel Mountains within the upper Los Angeles River watershed. This 
was done in recognition of the essential ecological unity of the 
mountains system in southern California and the artificiality of 
limiting protection to only a portion of it.
    The importance of the Rim of the Valley Corridor is twofold: The 
striking natural scenery and open space that still encircles the 
greater Los Angeles area, and the proximity of those natural resources 
to the ten million residents of Los Angeles and Ventura Counties.
    In 1978, Congress established the Santa Monica Mountains National 
Recreation Area acknowledging that it was a special area, almost unique 
in the park system, in that the National Recreation Area would be 
administered cooperatively with the state, regional, and local 
governments. That model has worked splendidly. There is now a seamless 
web of parkland extending from the beaches of Malibu to the height of 
Simi Peak, from the heart of downtown Los Angeles fifty miles west to 
Mugu Lagoon which is one of the last of California's unspoiled coastal 
wetlands. Although the Santa Monica Mountains NRA is far from complete, 
the outlines of its success are apparent. The Federal government has 
provided both material and intellectual resources that have coalesced 
and stimulated a much wider movement for the protection of the area and 
making it accessible for public recreation opportunities. The original 
authorization for the SMMNRA was $155,000,000, but to date the Santa 
Monica Mountains Conservancy of the State of California has doubled 
that, and the California State Parks Department has spent another 
$60,000,000 or so, and intends to spend more.
    There is every indication that including the Rim of the Valley 
Corridor within the Santa Monica Mountains National Recreation Area 
will have the same positive effect upon the protection of ecological 
communities and the well-being of human communities in northern Los 
Angeles and eastern Ventura counties. However, this bill does not 
presuppose an outcome, it merely directs a study. And a cooperative one 
at that. The National Park Service model has worked well for the Santa 
Monica Mountains proper, and can be readily adapted for most of the Rim 
of the Valley Corridor. In the eastern Rim of the Valley there may be 
institutional arrangements that recognize the vital role played by the 
Angeles National Forest--America's most visited National Forest--in 
protecting the San Gabriel Mountains and making them accessible for 
recreation purposes. By requiring a joint study by both the Secretary 
of the Interior and the Secretary of Agriculture, this bill makes it 
probable that what will emerge from the study is a method of protecting 
and enhancing this special area that will use the best resources of the 
National Park Service and the U.S. Forest Service.
    Last year, the Administration expressed concern about the number of 
park studies being undertaken, although it did not oppose the identical 
bill that was reported out of this committee last year.
    Let me emphasize why S. 347 is so urgent. While the satellite 
photos of southern California still show the wreath of green 
represented by the Rim of the Valley Corridor, land use decisions 
pending within the next few years can change all of that forever. 
Decisions will be made in that time frame by major landowners whether 
or not to engage in park partnerships--and many times sale for park and 
recreation purposes is a preferred choice for local property owners--or 
whether to commit the land to residential and commercial development. 
Local government planning and zoning decisions need to be informed by 
whether there will be a Federal initiative to protect this area. The 
introduction of similar measures in both houses of Congress last year 
stimulated a rush of local interest and support. There is a lot of good 
will resting on the swift completion of the study.
    The Santa Monica Mountains Conservancy stands ready to help in any 
way we can. Our data bases, planning studies, and personnel will all be 
made available. Even more significantly, I am prepared to recommend 
that we assist our colleagues in the Interior and Agriculture 
Departments with financial support for this study as well.
    Mr. Chairman, this concludes my statement and I would be happy to 
address any questions the committee may have.

    Senator Thomas. Okay. Thank you so much. We will get back 
to you for questions.
    Senator, do you have any opening comments?

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you, Mr. Chairman; thank you very 
much. I want to welcome our panelists to this hearing. Mr. 
Chairman, I want to thank you for scheduling this hearing. 
Since this is our first meeting of the National Park Committee 
this year, let me congratulate you on resuming----
    Senator Thomas. Thank you.
    Senator Akaka [continuing]. The chairmanship of the 
subcommittee. And I believe we have established a solid record 
of working together on a vast majority of park-related bills in 
a bipartisan manner. And I hope we will be able to continue 
this tradition this year.
    Senator Thomas. Thank you, sir. Thank you for being here.
    Gentlemen, if you will, we will move to the Senator to have 
him make his comments. Welcome, sir.

       STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR 
                         FROM MARYLAND

    Senator Sarbanes. Well, Mr. Chairman, thank you very much. 
And Senator Akaka and I are pleased to be here. And I am sorry 
I was precluded from arriving right at the beginning by my 
inability to get out of the previous meeting, to be very honest 
about it.
    I want to thank you for this opportunity to testify on S. 
328, legislation which Senator Mikulski and I have introduced 
to re-designate what is now known as the Catoctin Mountain Park 
as Catoctin Mountain National Recreation Area. We need 
legislation in order to this. And the purpose of this 
legislation is to address a long-standing confusion about the 
ownership and management of Catoctin Mountain Park and to 
clearly identify it as a unit of the National Park System.
    It is approximately a 6,000-acre park located on the front 
range of the Blue Ridge Mountains in Frederick County, 
Maryland, about a little more than an hour's drive from the 
Capital. It is home to Camp David. One travel writer has aptly 
described it as America's most famous unknown park.
    There is an interesting history about how Catoctin Mountain 
Park was created and developed. It was established in 1933 
under the Roosevelt administration's National Industrial 
Recovery Act as one of 46 recreational demonstration areas. The 
Federal Government acquired more than 10,000 acres of heavily 
logged land in Frederick County, Maryland, to demonstrate how 
sub-marginal land could be turned into a productive 
recreational area and help put people back to work.
    In 1936, the administrative authority for this recreational 
demonstration area was transferred to the National Park Service 
by Executive Order. In 1942, Camp High Catoctin, now known as 
Camp David, was selected as the location for the President's 
new retreat.
    Subsequently, they transferred approximately 5,000 acres to 
the State of Maryland. And that became what is known as 
Cunningham Falls State Park, which was just below the Catoctin 
Park. The remaining 5,700 acres was renamed Catoctin Mountain 
Park by the Director of the National Park Service in 1954. 
Unfortunately, the Director failed to include the term national 
in the title. And the park remains today one of only 17 units 
in the entire 388-unit National Park System that does not have 
this designation.
    Now, what has happened over the years is the proximity of 
the Catoctin Mountain Park, Camp David, and Cunningham Falls 
State Park. And the difference between National and State park 
management has been the source of confusion for visitors to the 
area. Catoctin Mountain Park has continually been misidentified 
by the public as the Cunningham Falls State Park, which has a 
lake and a beach area and so forth. It has also been confused 
with the Catoctin Wildlife Preserve and Zoo, a privately owned 
enterprise.
    The superintendent of the park says they spend a lot of 
time trying to redirect visitors. We think this legislation 
will help to clear up some of this confusion by renaming this 
the Catoctin Mountain National Recreation Area.
    There are some 18 such units designated as such in the Park 
Service. We have strong letters of endorsement here from the 
Board of Commissioners of Frederick County and the Tourism 
Council of Frederick County, in which they say, amongst other 
things, that their visitor center staff spends a good deal of 
time sorting out for visitors the difference between Catoctin 
Mountain Park and the adjacent State park. They think that 
putting national into the name, national recreation area, will 
help to clarify this distinction.
    It would not change any of the activities taking place but 
I think it would be very helpful in enhancing tourism and 
making people more aware of the National Park Service's 
involvement and eliminating this confusion that now exists. And 
I commend the legislation to the committee and hope you will be 
able to move it forward.
    I would be happy to answer any questions you might have.
    Senator Thomas. Thank you very much. Basically, then, it 
does not impact the management of it either, is that correct?
    Senator Sarbanes. No. The management is in favor of this 
name change, both at the park level and up through the Park 
Service. And I will submit for the record the two letters I 
have from the local county commissioners and the Tourism 
Council of Frederick County.
    Senator Thomas. We will include those in the record.
    Senator Sarbanes. Thank you very much.
    [The prepared statement of Senator Sarbanes follows:]

Prepared Statement of Hon. Paul S. Sarbanes, U.S. Senator From Maryland

    Thank you Mr. Chairman and Members of the Committee for this 
opportunity to testify on S. 328, legislation I introduced, together 
with Senator Mikulski, to re-designate Catoctin Mountain Park as 
``Catoctin Mountain National Recreation Area.'' The purpose of this 
legislation is to help address longstanding confusion about the 
ownership and management of Catoctin Mountain Park and to clearly 
identify this park as a unit of the National Park System.
    Mr. Chairman, Catoctin Mountain Park is an approximately 6,000-acre 
park located on the front range of the Blue Ridge Mountains in 
Frederick County, Maryland, about an hour's drive from the Capitol. 
Home to Camp David, it has been aptly described by a travel writer as 
``America's most famous unknown park.'' There is a remarkable history 
about how Catoctin Mountain Park was created and developed and I just 
want to highlight some of the major milestones so that the Committee 
perhaps better understand and appreciate what we are trying to 
accomplish with this legislation.
    Catoctin Mountain Park was established in 1933 under the Roosevelt 
Administration's National Industrial Recovery Act as one of 46 
Recreational Demonstration Areas (RDA). The federal government acquired 
more than 10,000 acres of heavily logged land in Frederick County, 
Maryland to demonstrate how sub-marginal land could be turned into a 
productive recreational area and help put people back to work. In 
November 1936, administrative authority for the Catoctin RDA was 
transferred to the National Park Service by Executive Order. From 1936 
through 1941, hundreds of people were employed in reforestation 
activities and in the construction of a number of camps, roads and 
other facilities in the Catoctin RDA.
    In 1942, Camp Hi-Catoctin, now known as Camp David, was selected as 
the location for the President's new retreat. Subsequently 
approximately 5,000 acres of the area was transferred to the State of 
Maryland, becoming Cunningham Falls State Park in 1954. The remaining 
5,770 acres of the Catoctin Recreation Demonstration Area was renamed 
Catoctin Mountain Park by the Director of the National Park Service in 
1954. Unfortunately, at that time, the Director failed to include the 
term ``National'' in the title. The park today remains one of 17 units 
in the entire 388 unit National Park System and one of 9 units in the 
National Capital Region that does not have this designation. Those 
units include four parkways, four wild and scenic rivers, the White 
House and Wolf Trap Farm Park for the Performing Arts.
    Over the years, the proximity of Catoctin Mountain Park, Camp 
David, and Cunningham Falls State Park and the differences between 
national and state park management, has been the source of longstanding 
confusion for visitors to the area. Catoctin Mountain Park has been 
continually misidentified by the public as containing lake and beach 
areas associated with Cunningham Falls State Park, being operated by 
the State of Maryland, or being closed to the public because of the 
presence of Camp David. Likewise, a privately owned Catoctin Wildlife 
Preserve and Zoo is often confused with the park. The Superintendent of 
the Park has advised me that National Park employees spend countless 
hours explaining, assisting and redirecting visitors to their desired 
destinations.
    My legislation would help to address this situation by renaming it 
the Catoctin Mountain National Recreation Area. The mission and 
characteristics of this park--which include the preservation of 
significant historic resources and important natural areas in locations 
that provide outdoor recreation for large numbers of people--make this 
designation appropriate. The National Park System includes 18 units 
designated as ``National Recreation Areas'' several of which are 
comparable to Catoctin.
    Mr. Chairman, this legislation is not controversial. It is strongly 
supported by the Board of County Commissioners and Tourism Council of 
Frederick County. I ask that letters from the Frederick County 
Commissioners and the Tourism Council be included in the hearing 
record, following my statement. The legislation would not change 
recreation, conservation or education activities currently occurring 
within the park. But it would assist the visiting public in 
distinguishing between the many units of the state and federal systems. 
It will also, in my judgment, help promote tourism by enhancing public 
awareness of the National Park unit, and perhaps have future travel 
writers change the moniker of Catoctin from ``America's most famous 
unknown park'' to one of America's most famous parks.
    I hope that the Committee can move swiftly to report this measure 
favorably to the full Senate for consideration.

    Senator Thomas. Any questions, Senator?
    Senator Akaka. I want to thank Senator Sarbanes for this 
change of name; and I know that the Park Service supports what 
you are doing, and I certainly do, too. Thank you.
    Senator Thomas. Okay. We are thinking of moving the Vice 
President's camp out to Teton Park in Wyoming.
    [Laughter.]
    Senator Akaka. I have seen that park. That is a beautiful 
park; I have to tell you, probably one of the most beautiful in 
America.
    Senator Thomas. We all know he is there when the airplane 
comes in to Jackson.
    Senator Akaka. Yes; I can imagine.
    Senator Thomas. Thank you, Senator. We appreciate your----
    Senator Akaka. Thank you very much. And I thank the 
witnesses for the indulgence of allowing me to intrude into the 
discussion. Thank you very much.
    Senator Thomas. Thank you.
    Okay. Mr. Tiller, would you like to go ahead, please?

STATEMENT OF deTEEL PATTERSON TILLER, ACTING ASSOCIATE DIRECTOR 
 FOR CULTURAL RESOURCES, NATIONAL PARK SERVICE, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Tiller. Mr. Chairman, thank you for the opportunity to 
present the view of the Department of the Interior on these 
four bills. For brevity's sake, I will condense my remarks in 
support of the full written testimony already submitted to the 
subcommittee.
    In the matter of S. 164, a bill authorizing the Secretary 
of the Interior to conduct a special resources study of sites 
associated with the life of Cesar Chavez and the American farm 
labor movement, the Department supports S. 164 with one 
proposed minor amendment. We believe the study is a good 
opportunity to identify, protect, and interpret sites and 
places associated with Mr. Chavez's nationally important life 
and enormous social change resulting from his leadership.
    We would suggest changing bill language to require the 
study to be completed 3 years after funding is made available, 
rather than 3 years after enactment, as is currently provided 
for in the bill. The National Park Service is now at various 
stages of completing over 40 congressionally authorized 
studies. Our highest priority now is on finishing these 
previously authorized by Congress. But we look forward to 
beginning this important study as soon as S. 164 becomes law 
and funding is made available.
    In regards to S. 328, the bill to rename the Catoctin 
Mountain Park in the State of Maryland as the Catoctin Mountain 
National Recreation Area, the Department of the Interior 
supports the bill. In addition to changing the name, S. 328 
provides much needed standard authorities, typical of national 
park units but missing at Catoctin Mountain, given its unique 
history going back to the 1930's.
    The Department of the Interior also supports S. 347, a bill 
that directs the Secretaries of the Interior and Agriculture to 
conduct a joint resources study to establish the Rim of the 
Valley Corridor in Los Angeles, California. S. 347 further 
requires that the study evaluate the suitability and 
feasibility of establishing the area as a unit of the Santa 
Monica Mountains National Recreation Area, consulting with 
citizens of the appropriate State, county, and local 
governments.
    We recognize the limitation nowadays of Federal resources 
to add to the Federal estate. And with a study area 
encompassing 491,000 acres, our approach will, of necessity, 
emphasize minimum Federal acquisition and management costs. And 
we would encourage large-scale public/private partnerships.
    Also, given the size and diversity of stakeholders in this 
important area, the study must involve extensive outreach with 
members of the public, private landowners, and local 
governments; entailing multiple comment periods, public 
meetings, and analysis. We offer one minor technical correction 
to the bill, which is attached in my testimony.
    And lastly in the matter of S. 425, a bill to revise the 
boundary of Wind Cave National Park in South Dakota. The 
Department of the Interior cannot support this at this time, 
because of the associated high cost. The Department strongly 
backs the President's commitment to eliminate the deferred 
maintenance backlog in our national parks. We need to continue 
to focus resources on taking care of existing units of the 
National Park System.
    The acquisition cost for the proposal, estimated between $5 
million and $6 million, plus recurring annual increases to park 
operating costs, if the expansion becomes law, prevents our 
support.
    Mr. Chairman, this concludes my testimony. I will be 
pleased to answer any questions you or other members of the 
subcommittee may have. Thank you.
    Senator Thomas. Okay. Thank you.
    [The prepared statements of Mr. Tiller on S. 164, S. 328, 
S. 347 and S. 425 follow:]

   Prepared Statements of deTeel Patterson Tiller, Acting Associate 
 Director for Cultural Resources, National Park Service, Department of 
          the Interior, on S. 164, S. 328, S. 347, and S. 425

                                 S. 164

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 164, a bill to authorize the 
Secretary of the Interior to conduct a special resource study of sites 
associated with the life of Cesar Estrada Chavez and the farm labor 
movement.
    The Department supports S. 164, with a minor amendment described 
later in the testimony. We believe that this study will provide a good 
opportunity to work with the Cesar E. Chavez Foundation and others to 
identify valuable resources associated with the story of Chavez's life 
and the movement he led and ways to protect those resources.
    The National Park Service is in various stages of progress with 40 
studies previously authorized by Congress. At least 17 of those studies 
are scheduled to be completed in Fiscal Year 2003. Seven additional 
studies are expected to be completed early in Fiscal 2004. Our highest 
priority is to complete the studies previously authorized by Congress, 
but we expect to begin work on newly authorized studies as soon as 
funds are available.
    Ask historians to name one person who had the greatest impact on 
farm labor, and the name of Cesar Estrada Chavez leaps to mind. Between 
the 1950's and the 1980's Chavez cultivated a life-long commitment to 
bringing respect, dignity, and democracy to the nation's farmworkers, 
many of whom were Hispanic. After an initial career as a community 
organizer, Chavez focused his organizing skills on the farmworkers, 
inspiring them to look their employers in the eyes, stand up for their 
rights and take active roles in creating their union and wielding its 
power. As a result of his efforts, he continues to serve as a symbol 
not only for Hispanic-Americans, but for all Americans, of what can be 
accomplished in this country through unified, courageous, and 
nonviolent action.
    Chavez's death on April 22, 1993, brought a resurgence of interest 
in his life and work and a new wave of assessments recognizing his 
national and, indeed, international significance. He has taken his 
place among other national labor leaders in the Department of Labor's 
Hall of Fame and been recognized by an ever-increasing number of states 
and communities with special holidays, events, and place names. Because 
of the tremendous impact he had, we believe it is appropriate to study 
sites associated with Cesar Chavez and the farm labor movement he led 
in order to consider ways to preserve and interpret this story of 
enormous social change.
    The National Park Service and the Cesar E. Chavez Foundation first 
discussed the possibility of conducting a national historic landmark 
study of sites related to the work of Chavez and the farmworkers' 
movement several years ago, as a way of identifying sites important to 
the history of the man as well as the migrant worker. The Foundation 
represents and fosters the ongoing legacy of Chavez and has a strong 
interest in seeing that heritage preserved. In 2002, the National Park 
Service collaborated with the Foundation and scholars at universities 
in Washington State and California in preparing a preliminary 
assessment and scope for future research on sites associated with 
Chavez and the farmworkers' movement. The information gathered through 
that assessment would give the National Park Service a head start on 
the study authorized by S. 164.
    S. 164 would authorize a study of sites in Arizona, California, and 
other States that are significant to the life of Cesar Chavez and the 
farm labor movement in the western United States to determine 
appropriate methods for preserving and interpreting sites. Through this 
study, the National Park Service could examine whether certain sites 
are suitable and feasible for addition to the National Park System. The 
study would be conducted in accordance with the criteria for new area 
studies contained in Title III of the National Parks Omnibus Management 
Act of 1998.
    The study also would consider whether any sites meet the criteria 
for listing on the National Register of Historic Places or for 
designation as a National Historic Landmark. This would enable the 
National Park Service to complete the work that was begun with the 
preliminary assessment described earlier. The legislation specifically 
requires that the National Park Service consult with the Cesar E. 
Chavez Foundation, the United Farm Workers Union, and other entities 
involved in historic preservation on this study. The study is estimated 
to cost approximately $250,000.
    The Department recommends one minor amendment to S. 164, which is 
on the page attached to this testimony. This amendment would provide 
for the study to be completed within three years after funding is made 
available for that purpose, rather than three years after enactment of 
this legislation.
Amendment to S. 164 Proposed by the National Park Service
    Page 3, line 23: Strike ``of enactment of this Act'' and insert 
``funds are made available for this purpose''.

                                 S. 328

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 328, a bill to designate Catoctin 
Mountain Park in the State of Maryland as the ``Catoctin Mountain 
National Recreation Area.''
    The Department supports S. 328. This legislation would provide a 
name for Catoctin Mountain Park that is appropriate for the purpose and 
use of this unit of the National Park System, and it also would update 
the authorities for administering this park.
    Catoctin Mountain Park had its origins as one of 46 Great 
Depression-era Recreational Demonstration Areas established by the 
Resettlement Administration, which was authorized under the National 
Industrial Recovery Act (1933) and Executive Orders of President 
Franklin D. Roosevelt. The Resettlement Administration acquired and 
developed Recreational Demonstration Areas across the nation to provide 
accessible, low-cost, quality outdoor recreation opportunities. They 
were used for day trips, picnicking, and overnight camping by families, 
social groups, and public organizations.
    Catoctin Recreational Demonstration Area, which comprised 
approximately 20,000 acres, was acquired after the area had sustained 
years of charcoal production, mountain farming, and harvesting of trees 
for timber. The Works Progress Administration and the Civilian 
Conservation Corps administered projects at Catoctin both to put people 
back to work and to establish an outdoor recreation area for the urban 
dwellers of nearby Washington, D.C. and Baltimore, Maryland. 
Jurisdiction over the Catoctin Recreational Demonstration Area was 
transferred to the National Park Service in 1935 by Executive Order.
    In 1942, one of the cabin camps built at Catoctin, Camp Hi-
Catoctin, was selected by President Roosevelt as the Presidential 
Retreat we know today as Camp David. Catoctin's distinctive history 
also includes serving as an O.S.S. training camp during World War II, 
and having the first Job Corps camp in the United States and the 
nation's oldest camp for the disabled.
    In 1954, approximately 4,400 acres of the area was transferred to 
the State of Maryland and became Cunningham Falls State Park. That same 
year, the Director of the National Park Service approved the renaming 
of Catoctin Recreational Demonstration Area as ``Catoctin Mountain 
Park'' and Congress provided authority to exchange lands to consolidate 
holdings in the park. Catoctin Mountain Park is currently 5,810 acres 
in size and has an average annual visitation of 700,000. The park, 
consisting largely of eastern hardwood forest, has many attractions for 
visitors: camping, picnicking, fishing, 25 miles of hiking trails and 
scenic mountain vistas.
    The proximity of Catoctin Mountain Park, Camp David, and Cunningham 
Falls State Park has caused longstanding confusion for visitors to the 
area. Catoctin Mountain Park is continually misunderstood as being 
closed to the public because of the presence of Camp David. Renaming 
the park as a ``national recreation area'' would offer an opportunity 
to reintroduce the park as an area that is open to public recreation. 
The public also has difficulty understanding why there is a difference 
between the activities permitted at Catoctin Mountain Park and those 
permitted at Cunningham Falls State Park. Including the word 
``national'' in the name of Catoctin Mountain Park would facilitate 
efforts to educate the public about these differences and to emphasize 
the value the National Park Service places on protecting cultural and 
natural resources for future generations.
    In addition, the name ``national recreation area'' would also help 
distinguish Catoctin Mountain Park from other local attractions, such 
as the privately-owned Catoctin Wildlife Preserve and Zoo, which are 
often confused with the park. And, the name change would enhance the 
efforts of the Maryland Office of Tourism Development and local tourism 
officials to promote the presence of the five National Park System 
units located in Frederick County, one of which is Catoctin Mountain 
Park.
    In addition to changing the name of the Catoctin Mountain Park, S. 
328 would provide the usual authorities that are included when a new 
unit of the National Park System is established. These provisions will 
make it easier for the National Park Service to administer the unit 
than continuing to rely on the piecemeal authorities that were granted 
since the 1930's. The authorities provided by S. 328 include formally 
establishing a boundary, permitting land acquisition within the 
boundary, providing for administration of the unit in accordance with 
laws governing the National Park System, and authorizing appropriations 
for the park. These provisions will ensure that the park is able to 
continue to appropriately administer the park's significant historic 
resources and important natural areas. The costs associated with this 
legislation would be negligible.
    We are currently reviewing previous authorities for Catoctin 
Mountain Park to determine whether any of them should be repealed in 
conjunction with providing the new authority for the park under S. 328. 
We will advise the subcommittee of our findings as soon as possible.

                                 S. 347

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on S. 347, a bill to direct the Secretaries of 
Interior and Agriculture to conduct a joint special resources study to 
evaluate the suitability and feasibility of establishing the Rim of the 
Valley Corridor, in the Los Angeles region, as a unit of Santa Monica 
Mountains National Recreation Area.
    The Department supports this bill with the minor clarification 
provided in this testimony. We believe that this study will provide a 
good opportunity to explore partnerships with a wide range of state, 
local, private, and other federal entities for the purpose of 
protecting and interpreting important natural and cultural resources.
    On July 18, 2002, the Department testified on S. 2571, a similar 
bill that would have directed the Secretary of the Interior to study 
the Rim of the Valley for addition to Santa Monica Mountains National 
Recreation Area. In our testimony, we recommended that the bill be 
amended to make the study a joint study between the Secretaries of 
Interior and Agriculture and we suggested that the provision that 
established a 17-member advisory commission was unnecessary. At the 
committee markup, S. 2571 was amended incorporating the department's 
suggestions. S. 347 is identical to S. 2571 as it was amended in the 
107th Congress.
    S. 347 directs the Secretaries of Interior and Agriculture to 
conduct a joint Special Resource Study of the Rim of the Valley 
Corridor in Southern California. S. 347 further requires that the study 
evaluate the suitability and feasibility of establishing the area as a 
unit of the Santa Monica Mountains National Recreation Area. The 
Secretaries are directed to use the criteria for study of areas for 
inclusion in the National Park System and to consult with appropriate 
State, county, and local governments. The study is estimated to cost 
approximately $500,000.
    The National Park Service generally conducts special resource 
studies to evaluate the suitability and feasibility of an area to 
become a new unit of the National Park System. We understand that the 
intent of this bill is not to establish a new park, but rather to study 
the Rim of the Valley as a potential addition for Santa Monica 
Mountains National Recreation Area. As such, we suggest that ``Special 
Resource Study'' be replaced with ``resource study'' in all places 
where it appears in the bill. We would be happy to work with the 
subcommittee staff to develop any additional clarifying language that 
may be required.
    The study would assess habitat quality, access to urban open space, 
low-impact recreation and educational uses, wildlife and habitat 
restoration and protection and watershed improvements along the Rim of 
the Valley corridor surrounding the San Fernando and La Crescenta 
Valleys. This corridor consists of portions of the Santa Monica 
Mountains, Santa Susanna Mountains, San Gabriel Mountains, Verdugo 
Mountains, San Rafael Hills and the connector to Los Padres, Angeles, 
and San Bernardino National Forests, which provide notable recreation 
opportunities close to the Los Angeles basin.
    In addition to natural and recreational opportunities, the area 
also includes properties found on the National Register of Historic 
Places. Old stagecoach stops and images of the Wild West still exist. 
Amtrak's Coast Starlight line travels past many of these rich cultural 
and natural motifs. The area supports a diverse system of plants and 
animals, including 26 distinct plant communities and more than 400 
vertebrate species.
    As the largest urban park area in the National Park System, the 
Santa Monica Mountains National Recreation Area includes 153,750 acres 
and provides recreational opportunities for approximately 530,000 
visitors annually. During the 25 years since the national recreation 
area was authorized by Congress, this unit has become a model of 
collaboration of many local, state, and federal public land managers, 
as well as many private property owners--all working together as 
stewards of the scenic, natural, cultural, and recreational resources.
    Recognizing the limitation of federal resources for acquiring and 
managing additional lands, the study would have to examine a number of 
alternatives for protecting significant areas of open space in the Rim 
of the Valley Corridor, including those that involve minimal cost to 
the federal government. With the study area encompassing 491,518 acres, 
the study would emphasize public-private partnerships. Given the large 
size and the diversity of stakeholders in the area, the study 
undertaken by the National Park Service would involve extensive 
outreach with members of the public, private landowners, and local 
governments. It would likely entail extended comment periods, and 
extensive analysis.

                                 S. 425

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department on S. 425, a bill to revise the boundary of Wind Cave 
National Park in the State of South Dakota.
    The Department does not support S. 425 at this time because of the 
high costs of this boundary expansion. The Department strongly supports 
the President's commitment to eliminate the deferred maintenance 
backlog in our national parks. We need to continue to focus our 
resources on taking care of existing areas in the National Park System.
    Wind Cave National Park, established in 1903, is one of the 
Nation's first national parks and the first cave set aside for 
protection. The cave itself, after which the park is named, is one of 
the world's oldest, longest, and most complex cave systems with more 
than 104 miles of mapped passages. The cave is well-known for its 
exceptional display of boxwork, a rare honeycomb-shaped formation 
protruding from the cave's ceilings and walls. While the cave is the 
focal point of the park, the land above the cave is equally impressive 
with 28,295 acres of rolling prairie, majestic forests, and pristine 
creeks. Legislation passed in 1912 established the Wind Cave National 
Game Preserve creating a permanent national range for buffalo and other 
Native American game animals as may be placed therein. In 1935, the 
Wind Cave National Game Preserve was transferred into Wind Cave 
National Park.
    This legislation would authorize the Secretary of the Interior to 
acquire 5,675 acres adjacent to Wind Cave National Park. A ranching 
family currently owns 5,555 acres of the land and has indicated they 
would be willing to sell the property to the United States as a lasting 
legacy to their father. Another 40 acres of land from a willing seller 
would preserve a viewshed for the park. The last 80 acres would be an 
administrative jurisdiction transfer from the Director of the Bureau of 
Land Management to the Director of the National Park Service. The 
acquisition cost for the proposal is estimated at $5 to $6 million 
although actual costs will not be known until the land appraisals are 
completed. In many cases, non-profit groups are willing to purchase the 
properties and hold them for a short period of time until the National 
Park Service is able to designate land acquisition funding.
    The current annual base funding for Wind Cave National Park is 
$1.892 million. If enacted, additional funding would be required due to 
anticipated increases in the number of FTEs needed for increased 
wildlife and interpretive responsibilities. In addition, construction 
funding of $1.817 million would be necessary for the removal and 
installation of fencing. This concludes my prepared statement. I will 
be pleased to answer any questions you or other members of the 
committee may have.
    This concludes my prepared statements. I will be pleased to answer 
any questions you or other members of the committee may have.

    Senator Thomas. What kind of designation, what kind of 
sites do you think would be appropriate for this in 164?
    Mr. Tiller. Cesar Chavez?
    Senator Thomas. Yes.
    Mr. Tiller. Without preempting the efforts of the study, 
already the National Park Service, working with the Cesar 
Chavez Foundation, has conducted a number of meetings to try to 
establish a time-line and what sites still remain through the 
part of his life. And it encompasses--as Senator McCain 
outlined, they cover everything from his birth home to the 
general store that his family ran for years, to sites 
associated with his national leadership movement.
    That is as far as we have gotten in that before running out 
of time and money to do that. So, I think there is going to be 
probably a full range of historic properties we have all 
throughout the Southwest associated with him.
    Senator Thomas. But would you see 10 different sites being 
a component of all this?
    Mr. Tiller. It is hard to know. This is not certainly my 
area of scholarship. My understanding is they have already 
identified, working with Chavez scholars, and with the United 
Farm Workers, and with the foundation, I think upwards of 20-
some sites they have already identified as still remaining from 
his life. Now my guess is, based on past experience, those that 
will be considered nationally significant are probably a very 
small number of those. But as far as they were able to get, 
they have been able to find 20-some sites.
    Senator Thomas. And what do you imagine they would be 
designated as, historic sites or----
    Mr. Tiller. The bill gives us the direction to look for 
those that might be eligible for listing on the National 
Register of Historic Places, designated as national historic 
landmarks. And my guess all or most of them would have to be 
given that honor. Those that might be considered for inclusion 
on the National Park System, I guess, would be a very tiny 
number. And I would not want to out-guess the study, if we go 
forward with it. But my guess is that most of them will be 
National Register listings or landmark designations.
    Senator Thomas. Are you prepared to move forward with this 
study, if the bill passes?
    Mr. Tiller. Well, given--except given the caveat, as I 
said, we have 40 studies already in the mill. And so these 
would have--all with congressional direction. So these would 
have to get in the rest of the batch, and we will have to move 
them along as best we can.
    Senator Thomas. I think I asked you before, not you, but 
some--if you have 40 that you have not done, why do you 
continue to support additional studies until you catch up with 
what you are doing?
    Mr. Tiller. Well, the best I can understand from talking to 
the folks in charge of this today, we have 15 to 17 that will 
probably be presented to this Congress this session. So we are 
making good progress on that. And many of these studies come, 
as the Chavez study has, from a real strong ground swell 
movement of locals and people desperately interested in having 
some help from their government to identify and to honor and to 
preserve these places. So we beat, as best we can, against the 
wind and do the best job we can.
    Senator Thomas. Well, I understand that. But putting them 
on your list, if your list is not being done, why, they still 
do not get finished.
    Mr. Tiller. Well, Senator, we are picking away at it. As I 
said, we are hoping to get 15 to 17 to you all this session. 
So, we are making progress.
    Senator Thomas. Well, that is good.
    Senator, do you have questions?
    Senator Akaka. Yes. I want to thank you for supporting the 
three bills, S. 164, S. 328, and S. 347. I see where you are 
not supporting S. 425 the Wind Cave National Park boundary 
expansion. And yet this bill, as I recall, was passed by 
unanimous consent already, but it did not pass all the way.
    At one time it was supported by the Park Service, and I see 
where, because of estimated costs of $5 million to $6 million 
and the addition of 5,675 acres, I assume that is the reason 
why it has opposition. Is there any question that these lands 
constitute an important addition to the Wind Cave National 
Park?
    Mr. Tiller. No; they are important lands and they are 
worthy lands.
    Senator Akaka. I also read where, if it were not expanded, 
it would have adverse effect and destroy some of the important 
and natural cultural resources that are in this area. Is that 
correct?
    Mr. Tiller. Senator, I do not have that information. But I 
know these are high quality lands.
    Senator Akaka. The Department continues to recommend that 
the committee defer action on park bills to address the 
deferred maintenance backlog. Can you tell me what the 
estimated dollar figure is for the backlog and how much 
progress has been made in reducing that amount over the last 
two years?
    Mr. Tiller. The President, Senator, committed $4.9 billion, 
based on a 1997 GAO report; $2.7 billion of that is road 
infrastructure. And we are in the process right now of reducing 
that amount. I was trying to get some figures before coming up 
here today where we are on that, and we are still in the 
process of trying to pull that information together.
    We are dealing with that through budget increases and 
realignment of expenditures with the Park Service budget 
annually and also trying to implement some effective management 
reforms so we do not get in that position again. But the 
highest marching order that the President has given the 
National Park Service is to buy down on the $4.9 billion 
backlog.
    Senator Akaka. Thank you. Thank you for your responses.
    Senator Thomas. Ms. Solis, glad to have you here.
    Ms. Solis. Yes.
    Senator Thomas. Would you like to read your comments, 
please?

               STATEMENT OF HON. HILDA L. SOLIS, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Ms. Solis. Yes. Thank you very much, Chairman Thomas, and 
ranking member, Mr. Akaka. Thank you for allowing me the 
opportunity to come to speak to you on behalf of the Cesar 
Chavez study act that has been introduced by Senator McCain. I 
am the sponsor of the bill in the House side, H.R. 1034. And I 
am very happy that this hearing has been set today.
    The bill will look for ways to honor Cesar Estrada Chavez, 
founder of the United Farm Workers, who was a passionate 
champion for human and civil rights, as some of you may know. 
Specifically, this bill directs the National Park Service to 
recognize Chavez's contributions to our society by looking for 
ways to memorialize his life and work through the national 
historical sites and national parks. It is the first step in 
honoring his tremendous accomplishments and the local 
communities where he spent his life as a child and as an adult.
    Cesar Chavez, as many of you know, historically was well 
known in the Hispanic community throughout this country for his 
pioneering work on behalf of farm workers, many of whom resided 
in the area, Delano, where he had many Filipino farm workers 
working, alongside with him, to help provide fairness and 
justice for those who worked and toiled in the field.
    It is fitting that we recognize him and that we ask the 
National Park Service to look at areas where he grew up, 
particularly in Yuma, Arizona. And I believe that is why 
Senator McCain is very interested in seeing this put forward. I 
think it is a tribute. Hispanic-Americans look to role models. 
He is one of those individuals, Cesar Chavez, who clearly in 
the eyes of many in our community look to him as a leader, much 
like Mahatma Gandhi and the works of Martin Luther King. It is 
fitting now in this time, in this century, that we take a look 
at his contributions.
    I would ask that the committee look favorably on this 
recommendation and look forward to working with Senator McCain. 
This should be a bipartisan effort because it is something that 
should be documented in our history books, as well as our 
public lands. So I would ask for your support.
    Senator Thomas. Thank you very much for coming over. We 
appreciate that.
    Representative Solis. Thank you.
    [The prepared statement of Ms. Solis follows:]

    Prepared Statement of Hon. Hilda L. Solis, U.S. Representative 
                            From California

    Thank you for the opportunity to testify in favor of the Cesar 
Estrada Chavez Study Act, introduced in the Senate by Senator McCain. I 
am the sponsor of this bill in the House, H.R. 1034, and am very happy 
that you are considering this important legislation.
    This bill will look for ways to honor Cesar Estrada Chavez, founder 
of the United Farm Workers and passionate champion of human and civil 
rights. Specifically, the bill directs the National Park Service 
recognize Chavez's contributions to our society by looking for ways to 
memorialize his life and work through National Historical sites or 
National Parks. It is the first step in honoring his tremendous 
accomplishments and the local communities where his footprints were 
made.
    Cesar Chavez was a humble man. Little did anyone know the greatness 
that he would bestow on future generations. In his early childhood, 
Cesar Chavez was raised as a farm worker in Yuma, Arizona. Raised 
during the Great Depression, his family lost everything and was forced 
to join the thousands of farm workers that wandered the Southwest to 
find work. During his youth, the Chavez family migrated throughout the 
Southwest, working in various farms that fed our country. The young 
Cesar Chavez experienced first-hand the hardships and injustices of the 
thousand of farm workers at that time. His home was barely livable and 
his school hardly fit to be called a schoolhouse. Unfair labor 
practices--harassment, abuse, long hours, low pay, hazardous working 
conditions and limited educational opportunities kept farm workers from 
being self-sufficient and empowered citizens.
    Witnessing and experiencing this lifestyle, Cesar Chavez sought to 
make changes in the way farm workers were treated. He united many 
others who also suffered similar atrocities, along with those who 
empathized with the struggle, to become part of the union movement.
    In 1952, he left the fields and joined the Community Service 
Organization. There he conducted voter registration drives and 
campaigns against racial and economic discrimination.
    In 1962, he took his vast experience, his compassion, and his 
brothers and sisters in this multi-ethnic struggle and started the 
National Farmworkers Association--today's United Farmworkers of 
America. The UFW succeeded in organizing the oppressed. They overcame 
this oppression through boycotts and pickets--and when all else failed, 
hunger strikes.
    Chavez was a student of Mahatma Gandhi's non-violent philosophies. 
He knew that you cannot unite people through violent means, but you can 
connect them by joining hands in peaceful demonstration. Since its 
inception, the UFW has achieved incredible results through its 
organization. Fair wages, health care coverage, pension benefits, 
housing, pesticide regulations, and countless other rights and 
protections are more a reality because of the UFW and in turn because 
of its founder--Cesar E. Chavez.
    On a personal note, as a young Latina growing up in California, 
Cesar Chavez was an inspiration to me. His life of service was part of 
what inspired me to work in government.
    In the past, we have honored other heroes, like Martin Luther King, 
Jr. and the Civil Rights Movement, through national parks and land. The 
life of Cesar Chavez and his family provides an outstanding opportunity 
to demonstrate and interpret the history of agricultural labor in the 
west through the National Parks Service.
    I thank the Committee for your time and encourage you to support 
the Cesar Chavez Study Act.

    Senator Thomas. Let us go back to questions then, Mr. 
Tiller.
    You may be excused, if you want, or you are welcome to 
stay, of course.
    Representative Solis. Thank you.
    Senator Thomas. S. 328, Catoctin Mountain Recreation Area, 
I notice that it has, in the bill, the authority to acquire 
private lands, or interest in private lands, within the 
boundary. How many acres of land could potentially be acquired 
for acquisition over the next 5 years or so?
    Mr. Tiller. The boundary that this bill finally establishes 
draws a line very neatly around all the property that we 
concurrently own. My understanding is there is one small parcel 
of land, I think it is about 20 acres, that we are already in 
the process of acquiring from a willing seller right now. And 
that should be completed momentarily, as I understand it.
    Therefore, everything within the boundary of this park unit 
are lands that we currently own. And conversely, there is no 
land that we do not own. So, condemnation or taking lands 
within this boundary is not an issue. It is all our own 
property now.
    Senator Thomas. Why do you have authority to acquire then?
    Mr. Tiller. Standard authorities that we are sort of 
backfilling with this bill much needed gives us the opportunity 
to make small, marginal changes to the boundary incrementally--
--
    Senator Thomas. This says land within the boundary of the 
recreation area.
    Mr. Tiller. I understand. It is not correct, sir. All the 
land within the boundary we do own, except for this one parcel 
that we have a willing seller for; and we are in the process of 
buying that right now.
    Senator Thomas. So, what do you propose to do with this 
language?
    Mr. Tiller. Well, I will have to get back to you. I did not 
study that for a re-write.
    Senator Thomas. It says within the boundary.
    Mr. Tiller. I understand.
    Senator Thomas. Okay. I do not have anything further on 
that bill. Did you, Senator?
    Senator Akaka. No.
    Senator Thomas. No more questions? Okay.
    Senator Akaka. Mr. Chairman, I would ask that Senator 
Daschle's and Senator Johnson's statements in support of S. 425 
on the Wind Cave National Park expansion be included in the 
record.
    Senator Thomas. All right, sir. We will do that. Thank you.
    On the Rim of the Valley study, how many acres of land does 
this addition or--totally represent, should this bill's 
proposal be completed?
    Mr. Edmiston. Mr. Chairman, our GIS information shows that 
410,496 acres would be added.
    Senator Thomas. What does that portion that is now forest, 
managed by the Forest Service--would that still remain managed 
by the Forest Service?
    Mr. Edmiston. Yes.
    Senator Thomas. What difference does it make, then, if it 
is in this category?
    Mr. Edmiston. Well, I think, first of all, there is 
significant lands that are between the Forest Service and the 
National Park Service. As you can see on this map, the map 
which used to be there----
    Senator Thomas. I have a map.
    Mr. Edmiston [continuing]. There is a connection there, 
including a portion of the San Gabriel Mountains and the Santa 
Susana Mountains, in connection into the Simi Hills and then 
into the Santa Monica Mountains proper, that is not under any 
kind of Federal protection. And that is a significant 
connectivity from a biological standpoint.
    And as I said, I think we have two of the Nation's premier 
natural resource entities, the Forest Service and the Park 
Service. And we think the genius of this bill is that it 
directs both of them to get together and figure out what the 
best way of managing is. And I do not think we can presuppose 
and predetermine the outcome of that study.
    Senator Thomas. Even including now, in the present outline 
there, how much of that is private land that is within the 
corridor of your current recreation area?
    Mr. Edmiston. I do not have that breakdown. But you can see 
in the darker green, the light green area is national forest 
property. And the darker green area is publicly owned property. 
And some of that is National Park Service. And the great 
majority of that actually is the State of California.
    Senator Thomas. Well, that green is mostly State parks, is 
it not?
    Mr. Edmiston. Yes, although there is approximately, I 
guess, right now about 30,000 acres that is part of the 
National Park System. And then the remainder is a combination 
of State parks and lands owned by the Santa Monica Mountains 
Conservancy.
    Senator Thomas. And privately owned lands interspersed, as 
well?
    Mr. Edmiston. Yes.
    Senator Thomas. Then in this section that runs on up 
towards the top there----
    Mr. Edmiston. Actually, I have been presented with the 
information about this: 47 percent is publicly owned and 53 
percent is privately owned.
    Senator Thomas. What conditions are there over the private 
land, any? There are not conservation easements or whatever?
    Mr. Edmiston. No. There are virtually no conservation 
easements that have been acquired. Almost--because of the 
nature of this property, you are talking about 90 percent of 
the values, the development value, anyway. There is precious 
little agriculture at all in this area.
    Senator Thomas. Who manages this current Santa Monica 
Mountain Recreation Area?
    Mr. Edmiston. The recreation area itself is a combination 
of National Park Service, State park system, and Santa Monica 
Mountains Conservancy properties.
    Senator Thomas. Who pays for the management of it?
    Mr. Edmiston. The National Park Service, everyone in the 
country, the State park system, everyone within the State of 
California.
    Senator Thomas. How is that divided, roughly? Is it, do you 
know, half and half?
    Mr. Edmiston. Each of the three management entities have 
roughly 150 employees. And so we are talking about roughly 350 
employees, 150 from the National Park Service, 150 from State 
parks. And that is the State government contribution, Santa 
Monica Mountain Conservancy. All of our sources are local 
sources. We do not have actually State money. So you have 
roughly one-third State, one-third local, and one-third 
national.
    Senator Thomas. Well, this is a huge project. There is no 
question about that. And now this is a study, of course, is it 
not, to determine----
    Mr. Edmiston. Right.
    Senator Thomas. And the Park Service is in favor of this 
bill?
    Mr. Tiller. Yes, sir; we are.
    Senator Thomas. What about the study? Are you prepared to 
do that, then?
    Mr. Tiller. We are prepared to do that. We have estimated 
the cost. Given the very extensive public comment it is going 
to require and time to do that, given all the varied interests 
and stakeholders, there are around $500,000.
    Senator Thomas. And you have that money in your pocket?
    Mr. Tiller. I do not have it in my pocket but it will be in 
the budget, we hope.
    [Laughter.]
    Senator Thomas. Okay. Well, certainly as a study, it is a 
reasonable thing. It is unusual. I suppose, at some time, we 
have to give some thought to what is appropriate for the 
National Park Service to be involved in and what is appropriate 
for the State to do or the local people. Since it is right in 
your State and so many private things involved, why would this 
not make a good State activity?
    Mr. Edmiston. Well, we have been working pretty darn hard, 
Mr. Chairman, since 1983, to do what we can. The significance 
of this area really is the Mediterranean ecosystem, which is a 
unique ecosystem. Some people simply call it brush. And we now 
recognize, for the last 30 years, it is one of the most 
threatened ecosystems in the world. And studies, the 
International Union for the Conservation of Nature, which is 
part of the United Nations, has identified the Mediterranean 
ecosystem as one of the most threatened ecosystems in the 
world. And the reason is that it is in southern California. The 
Mediterranean part of is has already been developed. You know, 
you cannot find a Mediterranean ecosystem left anymore in 
Italy. It has all been developed.
    And in southern California, it is also good to put houses 
on. And so this is the fast-disappearing ecosystem. And this is 
the reason we need to recognize it as part of the national park 
system.
    And, Mr. Chairman, last year I read your testimony and was 
impressed by it, by the comments that you made that the Park 
Service should really focus in and identify. And one of the 
criteria in the general authorization act of the Park Service 
are those properties that are not represented, those ecosystems 
not currently represented adequately, in the National Park 
System. And the Mediterranean ecosystem is not adequately 
represented.
    In 1978, when the Santa Monica bill passed, we did not 
really know the extent of the connectivity of these other 
mountain ranges. And when that boundary was drawn by 
Congressman Phil Burton, I was physically present when he drew 
it. And that was a politically determined boundary. It did not 
take into account the habitat. This boundary takes into account 
the habitat.
    Senator Thomas. I guess I do not know what--what did you 
call it, what kind of a system?
    Mr. Edmiston. Mediterranean ecosystem.
    Senator Thomas. Mediterranean. I thought that was somewhere 
over in Italy.
    Mr. Edmiston. Well, it was. And you know what? The Romans 
basically destroyed it. So the Mediterranean ecosystem, as it 
exists today, exists in southern California and South Africa. 
And around the Mediterranean, they pretty much--short shrift of 
it. So, we still have some opportunity left.
    And the interesting thing is that the biologists tell us 
they do have almost as much species diversity in this habitat 
system as you do, for example, in the rain forest. It just 
looks a lot different. But it is very significant.
    Senator Thomas. Along with 17 million people.
    Mr. Edmiston. You know, 17 million people and a lot of 
habitat have managed to coexist. It is an amazing thing.
    Senator Thomas. It is amazing. Well, it is unique. There is 
no question. I guess I am a little accustomed to national parks 
that, you know, were set aside before anyone was there except 
the explorers. And I understand we have different kinds of 
parks. I also understand that we need to, sort of, identify 
what the role of the Park Service is over time, and so on.
    Well, in any event, this is a study; and we appreciate it. 
And it will be interesting to see how that works out. The 
department, then, is opposed to the Wind Cave national boundary 
exchange?
    Mr. Tiller. Yes, Mr. Chairman.
    Senator Thomas. Is that specifically because of the cost?
    Mr. Tiller. Yes, Mr. Chairman; yes.
    Senator Thomas. So if Senator Daschle is available to stir 
up some money, I suppose that would be a different idea, then?
    Mr. Tiller. I would not presume to say.
    Senator Thomas. Other than that, has the park looked at 
this? Is this something that, aside from the cost, is a 
reasonable thing to do, in terms of the resource?
    Mr. Tiller. Yes, sir. These parcels of land were identified 
in our approved GMP for the park as valuable additions to the 
park unit. It is the cost and the President's commitment to 
reducing the backlog that prevents us from supporting it at 
this time.
    Senator Thomas. I see. I see it would provide for continued 
grazing for cattle.
    Mr. Tiller. Right now, my understanding is, sir, that there 
is no cattle grazing on either of the parcels. There are bison 
herds. The Casey family, who owns the largest piece of the land 
in question, are grazing bison at the moment. There are no 
cattle.
    Senator Thomas. It says continued grazing of livestock. I 
do not know what that means. I have been through a little 
problem with cattle grazing in the park, as you know.
    Mr. Tiller. I understand.
    Senator Thomas. And I do not think it is a bad idea. But 
some people do. All right. Well, did you have anything further 
to add?
    Mr. Tiller. Thank you very much.
    Senator Thomas. Mr. Edmiston?
    Mr. Edmiston. Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you for being here. We appreciate it 
very much.
    Senator, anything further?
    Senator Akaka. Nothing further, Mr. Chairman.
    Senator Thomas. Very well. If we have any further 
questions, we will submit them. And thank you for being here. 
And we adjourn the committee.
    [Whereupon, at 3:17 p.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                  Tourism Council of Frederick County, Inc.
                                   Frederick, MD, January 24, 2003.
Hon. Paul Sarbanes,
U.S. Senator, Hart Senate Office Building, Washington, DC.
    Dear Senator Sarbanes: On behalf of the more than two hundred 
members of the Tourism Council of Frederick County (MD), Inc., I am 
writing in enthusiastic support of your efforts to re-designate 
Catoctin Mountain Park as the Catoctin Mountain National Recreation 
Area.
    Frederick County is blessed with the wonderful Federal and State 
parks in the northern end of our county and these draw hundreds of 
thousands of visitors each year. Our organization operates the 
Frederick Visitor Center. The Visitor Center staff can attest to the 
popularity of the parks, but also spends a good deal of time sorting 
them out for visitors. Catoctin Mountain Park is frequently confused 
with the adjacent Cunningham Falls State Park. This has been the case 
for decades.
    We believe that adding the designation ``National'' to the name of 
Catoctin Mountain Park will help make the distinction between the 
neighboring parks, as well as providing recognition that Catoctin 
Mountain is a unit of the National Park Service. Designating Catoctin 
Mountain as a National Recreation Area further clarifies the offerings 
of this wonderful facility. As you know, the rich history of the park 
is complemented by varied outdoor recreation opportunities including 
hiking, camping, fishing, picnicking and cross-country skiing.
    Frederick County is proud to be home to the bulk of Catoctin 
Mountain Park and we believe that designation as Catoctin Mountain 
National Recreation Area will further our efforts to promote tourism in 
our area of Maryland. We appreciate your initiative in submitting 
legislation to effect this change, and we appreciate your continued 
support of the heritage and natural resources of our State.
            Sincerely,
                                          John J. Fieseler,
                                                Executive Director.
                                 ______
                                 
                             Board of County Commissioners,
                            Frederick County, MD, February 6, 2003.
Hon. Paul S. Sarbanes,
U.S. Senate, Hart Senate Office Building, Washington, DC.

Re: Renaming Catoctin Mountain Park

    Dear Senator Sarbanes: On behalf of the Board of County 
Commissioners of Frederick County, Maryland, I am writing regarding 
your proposed bill regarding the renaming of the Catoctin Mountain 
Park.
    During their meeting on Thursday, February 6, 2003, the Board of 
County Commissioners unanimously voted to support the proposed bill 
that would rename the Catoctin Mountain Park to the ``Catoctin Mountain 
National Recreation Area.''
    We thank you for the opportunity to comment on this important 
legislation. If you need anything further, please do not hesitate to 
contact me at (301) 694-1028.
            Sincerely,
                                     John L. Thompson, Jr.,
                                                         President.
                                 ______
                                 
  Statement of John L. Cooper, Cabinet Secretary, Department of Game, 
                 Fish and Parks, State of South Dakota

    Mr. Chairman, my name is John L. Cooper. I am the Cabinet Secretary 
for the State of South Dakota, Department of Game, Fish and Parks. I 
want to thank you for the opportunity to provide written testimony on 
behalf of the South Dakota Department of Game, Fish and Parks (GF&P) 
concerning S. 425, to expand the boundary of Wind Cave National Park in 
South Dakota.

    GF&P supports S. 425. State concerns and conditions that were put 
forth to the National Park Service in anticipation of this boundary 
expansion have been answered to our satisfaction. The working 
relationship between Wind Cave National Park (Wind Cave) and the State 
of South Dakota has been excellent and with continued cooperation we 
can continue to address the complex needs of land and wildlife 
management in the Wind Cave area.

    There are two primary issues that have been addressed:

  <bullet> Cooperative Elk Management Plan

    In June 2002, GF&P entered into a Memoranda of Understanding (MOU) 
with the National Park Service to establish standards in the project 
planning and National Environmental Policy Act (NEPA) process for 
development of an elk management plan for Wind Cave. While management 
jurisdiction is clearly defined by park boundaries, animals freely 
cross back and forth between these boundaries. Concerns were put forth, 
and are now being addressed, on a potentially over-population of elk in 
the Wind Cave and its affect on surrounding areas. Of particular 
concern have been complaints from private landowners of property 
depredation by elk and deer, Thus requires a regional approach to 
address elk management from the standpoint of Wind Cave, the State of 
South Dakota, and private landowners. Scientific data on elk 
populations, movements. habitat and carrying capacity are now being 
implemented. GF&P is continuing efforts with Wind Cave to develop a 
regional long-term elk management plan.

  <bullet> Chronic Wasting Disease

    As part of that same MOU, a plan has been formulated and put in 
place to address the potential for chronic wasting disease (CWD), a 
disease that is lethal to elk and deer. A positive test was returned on 
an ells from within the Wind Cave boundaries in 2002, and CWD has been 
documented on the property proposed for acquisition to complete the 
boundary expansion. It will be vital to carry on long-term monitoring 
and research of CWD in the expanded Wind Cave boundary area. This will 
include installing and maintaining quality fences to keep lands 
potentially affected with CWD segregated from other areas. The 
potential for spread of CWD must be kept at zero. Work recently began 
to live-trap deer within Wind Cave for CWD testing to determine the 
occurrence rate of the disease. There is no live test for elk, but Wind 
Cave has an elk CWD monitoring plan for any animals which exhibit 
visual symptoms.

    These are the initial steps in this cooperative effort. We 
understand that the National Park Service will serve as lead agency for 
the preparation of elk and CWD management plans and associated 
Environmental Impact Statements in Wind Cave, and will have approval 
authority and responsibility for any proposed actions within Wind Cave. 
GF&P will act as a consultant in these management plans, and serve as 
lead agency in regional management plans. Thus will allow our agencies 
to effectively coordinate our planning efforts and share expertise on 
these issues.

    Another concern which arose and has subsequently been addressed was 
the loss of public hunting opportunities should an 880 acre parcel of 
School and Public Land have been included in the expansion. Alternative 
``B'', which excludes those acres from the Wind Cave boundary 
expansion, is the chosen alternative and will negate that issue.

    Other issues that have been reviewed and will need continued 
monitoring are weed control (in particular Canada thistle), prairie dog 
management, and reintroduction of the black-footed ferret. These appear 
to be headed in a very positive direction and we look forward to 
working with Wind Cave on these efforts.

    The Black Hills of South Dakota is a world-class tourist 
destination that has tremendous economic benefit for our state. The 
land has incredible beauty and has been a prime target of private 
developers. Large tracts of valuable grassland and forest habitat are 
being lost each year. We support efforts to maintain this vital 
wildlife habitat.

    GF&P has a strong working relationship with Wind Cave. Based on the 
excellent records our agencies have in cooperation, and on the 
agreements that have been put forth, we support this action to expand 
the park boundary in western South Dakota.

    This concludes my written testimony. Thank you again for this 
opportunity.


</pre></body></html>
